           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    INDIVIDUAL REPRESENTATIVE
  PAYEES FOR THE SOCIAL SECURITY
          ADMINISTRATION
      IN THE ATLANTA REGION

     May 2005     A-13-05-15051




   EVALUATION
     REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   May 20, 2005                                                                          Refer To:

To:     Paul D. Barnes
        Regional Commissioner
         Atlanta

From:   Inspector General

Subject: Individual Representative Payees for the Social Security Administration in the Atlanta
        Region (A-13-05-15051)


        OBJECTIVE
        Our objective was to confirm that beneficiaries in the care of representative payees
        existed; and, through personal observation and interviews, to determine whether the
        beneficiaries' food, clothing and shelter needs were being met.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted the Social
        Security Administration (SSA) the authority to appoint representative payees to receive
        and manage these beneficiaries’ benefit payments.1 A representative payee may be an
        individual or an organization. SSA selects representative payees for Old-Age, Survivors
        and Disability Insurance beneficiaries and Supplemental Security Income recipients
        when representative payments would serve the individual’s interests.

        SSA’s primary concern is to select the payee who will best serve the beneficiary’s
        interest; and preference is normally given to a parent, legal guardian, spouse or other
        relative of a beneficiary.2 SSA considers that payments to a representative payee have
        been used for the use and benefit of the beneficiary if they are used for the beneficiary’s
        current maintenance—which includes the costs incurred in “…obtaining food, shelter,
        clothing, medical care, and personal comfort items.”3

        We are conducting a nation-wide review of individual representative payees serving
        14 or fewer beneficiaries (see Appendix A). There are approximately 4.3 million of

        1
            Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C §§ 405(j)(1)(A) and 1383(a)(2)(A)(ii).
        2
            20 C.F.R. §§ 404.2021 and 416.621.
        3
            20 C.F.R. §§ 404.2040(a) and 416.640(a).
Page 2 – Paul D. Barnes


these types of representative payees who serve approximately 5.5 million beneficiaries.
To provide statistically valid nation-wide projections, we selected 275 individual
representative payees for review, of which 75 were in the Atlanta Region.4 These
75 representative payees received and managed approximately $50,760 in monthly
benefits for 96 beneficiaries.

RESULTS OF REVIEW
We confirmed the existence of the 96 beneficiaries in the care of the 75 representative
payees in the Atlanta Region. We also determined, through personal observation and
interviews, 95 beneficiaries' food, clothing and shelter needs were being met.5 For
these individuals, nothing came to our attention that would lead us to believe that the
representative payees did not use the Social Security benefits received for the
beneficiaries’ needs. However, one beneficiary was incarcerated during our review and
therefore we could not observe his living arrangements when he was not incarcerated.
As a result, we could not determine whether his food, clothing and shelter needs were
being met by the Representative Payment Program. We referred this case to SSA for
review.

We also found inaccurate information was recorded in the Representative Payee
System (see Appendix B).

Confirmed Beneficiaries’ Existence and Their Needs Were Met

Of the 96 beneficiaries included in our review, we confirmed the existence of, and found
the food, clothing and shelter needs were being met for, 95 beneficiaries (see
Appendix B). Information related to some of those representative payee site visits is
discussed below.

•   We met with a representative payee residing in New Port Richey, Florida. The
    representative payee was receiving survivor benefits on behalf of his 16-year-old
    niece (beneficiary). The beneficiary’s father died before her birth. Additionally, her
    mother died when she was 7 years old. At that time, she was placed in the
    representative payee’s custody. During our visit, the representative payee
    expressed his gratitude for the concern SSA displayed regarding his niece’s welfare.



4
  Originally, there were 72 cases in the Atlanta Region. However, two cases originating in other SSA
regions were replaced because one representative payee had died and one beneficiary had died. The
replacement cases were located in the Atlanta Region. One representative payee was transferred as
they received mail in one Region, but physically resided in the Atlanta Region.
5
  Of the 95 beneficiaries, we determined that 1 beneficiary’s shelter needs were met based upon
interviews with the beneficiary and representative payee. In this case, we did not observe the
beneficiary’s residence because at the time of our interview, the beneficiary’s residence was inaccessible
due to flooding. We did not schedule a return visit to view the residence since during our review, nothing
came to our attention that would lead us to believe the representative payee did not use the Social
Security benefits received for this beneficiary’s needs. Further, of the 75 representative payees,
54 payees were the beneficiaries’ mother or father, and 21 payees were another relative.
Page 3 – Paul D. Barnes


• Accompanied by SSA personnel, we visited a representative payee in Asheboro,
  North Carolina. The representative payee was the beneficiary’s father and, because
  of illness, the representative payee had been living with another son for 2 years.
  Since the representative payee was ill and being cared for by his son, the SSA
  employee stated an assessment would be done to determine whether a new payee
  should be appointed. After we completed our field work, the Agency notified us that
  the beneficiary’s representative payee had been changed.

• We visited a representative payee in Miami, Florida, who was receiving benefits for
  her two nieces. The representative payee explained her two nieces had a prior
  representative payee. The representative payee explained she was given legal
  custody of her nieces because her nieces’ previous representative payee was
  abusive. According to the representative payee, SSA was reviewing the prior payee
  for possible misuse of Social Security benefit payments. In March 2005, a field office
  staff member advised us that the Agency completed its review and determined the
  prior representative payee did not misuse the funds.

• We met with a representative payee in Memphis, Tennessee, who was receiving
  Supplemental Security Income payments on behalf of his stepdaughter (beneficiary).
  The representative payee stated when he received the beneficiary’s monthly
  payments, he passed the full amount of the payments to the beneficiary with
  instructions on how to spend the funds. The representative payee also stated that,
  since they resided together, he maintained control of how the money was spent.

Representative Payee Did Not Meet Responsibilities

Although we determined the existence of all 96 beneficiaries in the care of the
75 representative payees included in our review, through personal observation and
interviews, we could not determine whether the needs were being met for 1 beneficiary.
One of a representative payee’s primary responsibilities is to ensure the beneficiary’s
day-to-day needs are met. This includes costs incurred in obtaining food, shelter,
clothing, medical care, and personal comfort items. It also includes, but is not limited to,
regularly meeting with the beneficiary to ascertain his/her current and foreseeable
needs.6

In the instance where we could not determine if the beneficiary’s needs were being met,
the representative payee explained the beneficiary was her 44-year-old son.
Additionally, the representative payee stated the beneficiary was a slow learner and had
mental, drug, and health problems. The representative payee acknowledged the
beneficiary had not lived with her for approximately 2 years; did not have a steady living
arrangement; may have resided in various apartments, shelters, and missions; and was
often homeless.

When we interviewed the beneficiary, he was incarcerated. The beneficiary was
incarcerated for a misdemeanor for 2 weeks. Since the beneficiary’s incarceration did
not include a full calendar month, his benefits were not affected.

6
    SSA POMS, GN 00502.113.
Page 4 – Paul D. Barnes



During the interview, the beneficiary advised us that, when not incarcerated, he lived in
various places and was often homeless. Further, the beneficiary indicated a preference
that another representative payee manage his benefit payments.

In addition, we determined that the representative payee managed the monthly benefit
payment as a conduit payee. SSA defines a conduit payee7 as a representative payee
who turns over the full amount of the benefits to the beneficiary or to another person
without giving any direction or instruction about how to use the funds. Further, SSA
policy8 states these representative payees do not exercise control over the funds and
cannot accurately account for how the funds are spent. SSA is required to determine
whether a new payee is needed or if the beneficiary is capable of receiving direct
payment.

This representative payee was appointed for the beneficiary in February 2003 and
managed a monthly benefit of $527.9 During our interview, the representative payee
stated the beneficiary’s payment was electronically deposited into a bank account.
Further, the representative payee stated the entire amount of the benefit payment was
withdrawn and provided to the beneficiary without direction or instruction about how to
use the funds. Given this situation, the representative payee was not ensuring benefit
payments were being used to meet the beneficiary’s food, clothing and shelter needs.

We could not observe the beneficiary’s living arrangements since he was incarcerated
at the time we interviewed him. Therefore, we could not fulfill our review objective to
determine through personal observation whether his food, clothing and shelter needs
were being met. However, the beneficiary and the representative payee’s comments
raised concerns as to whether those needs were being met. As a result, we referred
this case to SSA’s Regional Office staff.

Subsequent to our review, Regional Office staff advised “…Based on information
provided by this beneficiary and his payee, the SSA Field Office investigated whether a
new payee should be appointed. After careful review of the situation, the office
concluded that the beneficiary should be made his own payee. This action was
processed and the checks are now sent directly to the beneficiary.”




7
    SSA POMS, GN 00605.066B.
8
    SSA POMS, GN 00605.067D.
9
 The monthly amount of $527 began April 2004 including both Old-Age, Survivor and Disability Insurance
and Supplemental Security Income monthly benefit payments.
Page 5 – Paul D. Barnes


CONCLUSIONS
The 96 beneficiaries in the care of 75 representative payees in the Atlanta Region
existed; and, through personal observation and interviews, we found that 95 of the
beneficiaries’ food, clothing and shelter needs appeared to be met. However, for one
beneficiary, we could not determine whether his needs were being met. We referred
this case to SSA for review based on the information obtained from the beneficiary and
representative payee. SSA advised us it reviewed the case and appointed the
beneficiary as his own payee.

AGENCY COMMENTS
In its comments to our draft report, SSA agreed with the results of our review. In
addition, the Agency requested us to provide information concerning the five
representative payees identified in the “Other Matter” section. The Agency will use this
information to correct the addresses in its Representative Payee System. See
Appendix D for full text of the Agency’s comments.

OIG COMMENTS
We provided the sample item number, name, and Social Security numbers of the five
representative payees identified in the “Other Matter” section to the Agency.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology

APPENDIX B – Other Matter

APPENDIX C – Sampling Methodology

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                                   Appendix A
Scope and Methodology
Our population included all individual representative payees within the contiguous
48 states serving 14 or fewer beneficiaries as of May 20, 2004. To accomplish our
objective, we:
•   Reviewed applicable Federal laws and the Social Security Administration’s policies
    and procedures for monitoring representative payees and their responsibilities for
    the beneficiaries in their care.
•   Obtained a data extract of representative payees from the Representative Payee
    System as of May 2004.
•   Selected a national random sample of 275 representative payees nation-wide. We
    are issuing a separate report on the nation-wide results, as well as separate reports
    for each of the 10 SSA regions.1

For the 75 representative payees in the Atlanta Region, we:
•   verified the identities of 75 representative payees and 96 beneficiaries they served;
•   interviewed 75 representative payees;
•   interviewed 96 beneficiaries; and
•   visited and observed the living conditions of 96 beneficiaries.2

We performed our review in Alabama, Florida, Georgia, Kentucky, Mississippi, North
Carolina, South Carolina and Tennessee from July to October 2004. We conducted our
review in accordance with Quality Standards for Inspections issued by the President’s
Council on Integrity and Efficiency.

1
  SSA OIG, Nation-Wide Survey of Individual Representative Payees for the Social Security
Administration (A-13-05-25006), Individual Representative Payees for the Social Security Administration
in the Boston Region (A-01-05-15048), Individual Representative Payees for the Social Security
Administration in the New York Region (A-02-05-15049), Individual Representative Payees for the Social
Security Administration in the Philadelphia Region (A-14-05-15050), Individual Representative Payees for
the Social Security Administration in the Atlanta Region (A-13-05-15051), Individual Representative
Payees for the Social Security Administration in the Chicago Region (A-05-05-15052), Individual
Representative Payees for the Social Security Administration in the Dallas Region (A-06-05-15053),
Individual Representative Payees for the Social Security Administration in the Kansas City Region
(A-07-05-15054), Individual Representative Payees for the Social Security Administration in the Denver
Region (A-07-05-15055), Individual Representative Payees for the Social Security Administration in the
San Francisco Region (A-09-05-15056), and Individual Representative Payees for the Social Security
Administration in the Seattle Region (A-09-05-15057).
2
  Of the 96 beneficiaries, we determined that 1 beneficiary’s shelter needs were met based on interviews
with the beneficiary and representative payee because, at the time of our interview, the beneficiary’s
residence was flooded. In addition, for another beneficiary, who was incarcerated during our review
period, we could not observe his living arrangements when he was not incarcerated.
                                                                              Appendix B
Other Matter
REPRESENTATIVE PAYEE SYSTEM
The Social Security Act requires that the Social Security Administration (SSA) develop a
system to maintain data about all representative payees and the individuals they serve.1
As a result, SSA established the Representative Payee System, which is a system that
contains data about representative payee applicants; individuals in the representative
payee’s care; and the relationship between the representative payee and the
beneficiaries they serve.

Within the Representative Payee System, a data collection screen2 collects the
following information pertaining to an individual representative payee applicant:
      •   name legend preference,
      •   telephone number,
      •   mailing address,
      •   whether the residence address is the same as the mailing address, and
      •   whether the applicant has ever been convicted of a felony.

An additional screen3 captures the residence address4 information and the date of the
current residence address for the applicant/representative payee. The screen requests
prior address information if the applicant/representative payee has resided at their
current residence address for less than 1 year.

During our review, we identified instances where inaccurate information was recorded in
the Representative Payee System. For five representative payees, Post Office boxes
were identified as mailing addresses for these individuals. However, these same Post
Office boxes were incorrectly identified as the residence address of the representative
payee.




1
    Social Security Act § 205(j)(3)(F), 42 U.S.C. § 405(j)(3)(F).
2
 Modernized Systems Operations Manual (MSOM), Chapter 239, Representative Payee Application,
Section 239-D, Individual Applicant/Rep Payee Address (RPAD).
3
 MSOM, Chapter 239, Representative Payee Application, Section 239-E, Individual Applicant/Rep Payee
Residence Address (RPAI).
4
    Representative Payee’s physical location.
                                                                     Appendix C
Sampling Methodology
To identify the nation-wide population, we obtained a data extract from the Social
Security Administration’s Representative Payee System of all individual representative
payees who had 14 or fewer beneficiaries in their care as of May 20, 2004. This
population was 5,380,635 representative payees who served 6,818,696 beneficiaries.

From this population, we excluded representative payees who had any of the following
characteristics:
•   resided outside of the 48 contiguous States;
•   served only as their own representative payee, as reflected in the Representative
    Payee System;
•   had only beneficiaries who were in non-current pay status;
•   had an invalid State code or military address; or
•   managed total funds of $50 or less each month.

This reduced our sample population to 4,306,779 representative payees serving
5,520,303 beneficiaries. From this population, we randomly selected
275 representative payees for review. Twenty-five additional representative payees
were chosen to serve as replacements, as needed.

Atlanta Region Sample Cases

Initially, 72 of the 275 sample cases chosen were located in the Atlanta Region.
However, three representative payees were added to our Region:

•   One representative payee was transferred from the Chicago Region because SSA
    records showed the representative payee had a Michigan address when the
    representative payee and beneficiary actually lived in North Carolina.
•   One representative payee was added to our Region for review because a
    representative payee in the Seattle Region was deceased, and the replacement
    sample case randomly chosen was located in the Atlanta Region.
•   One representative payee was added to our Region for review because a
    beneficiary in the New York Region was deceased, and the replacement sample
    case randomly chosen was located in the Atlanta Region.

Accordingly, our review of the Atlanta Region consisted of 75 representative payees.
Our findings in the Atlanta Region will be included in a nation-wide report, where
statistical projections will be made.
                                                                   Appendix D
Agency Comments


                              SOCIAL SECURITY
 MEMORANDUM

 Date:    April 20, 2005
                                                             Refer To: Bluke21322

 To:      Inspector General                                  Atlanta Regional Office


 From:    Regional Commissioner
          Atlanta

 Subject: Reply: Individual Representative Payees for the Social Security
 Administration in the Atlanta Region (A-13-05-15051)

 We appreciate the time and effort put forth in the audit conducted involving
 individuals serving as representative payees. There were no findings or
 recommendations specifically outlined in the draft. However, we have the following
 comments in reference to the draft report submitted for review:

 Conclusion- We are pleased that OIG confirmed that food, clothing and shelter
 needs are being met by payees representing 95 of the 96 beneficiaries selected for
 review. The one remaining beneficiary was incarcerated at the time of the review,
 and therefore documentation of the payee meeting his needs was not possible.
 Based on information provided by this beneficiary and his payee, the SSA Field
 Office investigated whether a new payee should be appointed. After careful review
 of the situation, the office concluded that the beneficiary should be made his own
 payee. This action was processed and the checks are now sent directly to the
 beneficiary.

 Other matter- OIG identified five representative payees with Post Office Boxes
 recorded as their residence address in the Representative Payee System (RPS).
 SSA will take corrective action in RPS when case specific information (e.g., names,
 SSNs, etc) is provided.




                                        D-1
In addition, we are issuing a reminder to field offices to always obtain and properly
record residence addresses for individual payees and location addresses for
organizational payees per SSA operating instructions.

We are pleased with OIG’s overall conclusion that the individual payees reviewed are
performing their payee duties satisfactorily. The Agency strives to ensure that proper
payee selections are made for all individuals requiring payee services. This review
concluded that SSA and SSI benefits were used in accordance with SSA’s policies
and procedures.

The representative payee program is an ongoing priority. We are committed to
continue improving our service to all beneficiaries and recipients. We are especially
attentive to our most vulnerable citizens, those requiring the services of a
representative payee.

Questions concerning these comments should be directed to Barbara Luke at 404-
562-1322.

                                          /s/
                                    Paul D. Barnes




                                         D-2
                                                                        Appendix E
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

   Kim Byrd, Director, Southern Audit Division (205) 801-1605

   Brian Karpe, Audit Manager, General Management Audit Division (410) 966-1029

   Frank Nagy, Audit Manager, Southern Audit Division (404) 562-5552

Acknowledgments

In addition to those named above:

   Janet Stein-Pezza, Analyst-in-Charge

   Alan Carr, Senior Auditor

   Shane Henley, Auditor

   Phillip Krieger, Auditor

   Charles Lober, Lead Auditor

   James Penna, Auditor

   Susan Phillips, Auditor

   Linda Webester, Senior Auditor

   Kim Beauchamp, Writer Editor

   Brennan Kraje, Statistician

   For additional copies of this report, please visit our web site at http://ww.ssa.gov/oig
   or contact the Office of the Inspector General’s Public Affairs Specialist at (410)
   965-3218. Refer to Common Identification Number A-13-05-15051.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
